<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 109-232]
[From the U.S. Government Printing Office]



                                                     S. Hrg. 109-232
 
           NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                 U.S. GOVERNMENT PRINTING OFFICE

25-226                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2005...................................     1
Statement of Senator Allen.......................................     5
Statement of Senator Inouye......................................     3
    Prepared statement...........................................     3
Statement of Senator Lautenberg..................................     2
Statement of Senator McCain......................................     2
Statement of Senator Stevens.....................................     1
    Prepared statement...........................................     7

                               Witnesses

Cino, Maria, Deputy Secretary-Designate, Department of 
  Transportation.................................................     7
    Prepared statement...........................................     9
    Biographical information.....................................     9
Clinton, Hon. Hillary Rodham, U.S. Senator from New York.........     4
Scheinberg, Phyllis F., Assistant Secretary of Transportation for 
  Budget and Programs/Chief Financial Officer-Designate, 
  Department of Transportation...................................    13
    Prepared statement...........................................    13
    Biographical information.....................................    14

                                Appendix

Response to Written Questions Submitted by Hon. Daniel K. Inouye 
  to:
    Maria Cino...................................................    27
    Phyllis F. Scheinberg........................................    29


            NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION

                              ----------                              


                        TUESDAY, APRIL 26, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. While we are waiting for our Co-Chairman, let 
me thank you all for coming. Perhaps we could have an 
opportunity to have the two nominees introduce their family who 
are here. Ms. Scheinberg, would you like to tell us who is with 
you for the record today.
    Ms. Scheinberg. Thank you, Senator. I would like to 
introduce: my father, Jacob Factor; my husband, David Turner; 
and my son, Eric Turner.
    The Chairman. Thank you very much. It is nice to have you 
here.
    Ms. Cino, I understand you have----
    Ms. Cino. I have my Northern Virginia family here.
    The Chairman. It is a notorious family you brought with you 
this morning.
    [Laughter.]
    Ms. Cino. Yes, sir, I have been told.
    But I have my two godchildren here, Mattie and Emma 
Carville.
    The Chairman. Good morning, thank you.
    Ms. Cino. And many members of my wonderful friends that are 
here to support me and have really been responsible for me 
being here.
    The Chairman. Thank you very much.
    Jim and Mary, we are happy to have you here. It is nice of 
you to come.
    We want to wait just a second here for Dan if we can. I 
would say for the record that we are meeting today on short 
notice on the nominations of Mario Cino and Phyllis Scheinberg. 
The President nominated Mario Cino to be Deputy Secretary of 
Transportation on April 6th and Ms. Scheinberg was nominated on 
April 14th. Each has come to us with tremendous recommendations 
and there has been an expression of urgency that we proceed 
with these nominations.
    Senator Inouye is on the way, John. But do you have a 
statement to make first?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I am sure that our distinguished Senators 
Allen and Clinton will say whatever is necessary. I would like 
to say, Mr. Chairman, if we are waiting for Senator Inouye, 
that I do happen to know both nominees and I think they are 
highly qualified. I also think, if I could mention Ms. 
Scheinberg in particular, she has done some outstanding work on 
pipeline safety, on Amtrak, on a number of other issues that I 
think have been really, really enormously helpful to the work 
of this Committee, and I welcome both nominees.
    I thank you, Mr. Chairman.
    The Chairman. Yes, I would join that. I read through your 
background and the statements you filed, and the enormous 
number of reports that you are responsible for over the years. 
It is just something else.
    We are waiting for Senator Inouye. Senator, would you like 
to make any comments?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. If I may. I would just like to say that 
I thank you for holding this hearing on these two important 
positions. I am concerned about the Administration's 
transportation policy. First, the administration for the first 
time during war years decided to reduce revenues by ordering 
tax breaks for the wealthiest among us. That of course then 
makes less funds available for other projects that require some 
attention. Faced with record deficits, the Bush tax cut forces 
us to slash programs that middle class families depend on every 
day, including transportation programs.
    There can be no mistake about it. Americans are totally 
dependent on transportation--our country built its economy and 
its culture on our national transportation system, which 
includes highways, waterways, railroads, and airports. Security 
and safety are among the most paramount things in all of these 
modes.
    The federal leadership and support of our national 
transportation system helps commuters, students, businesses, 
everybody in our country. In short, federal transportation 
programs make our Nation safer, more secure, and more 
prosperous. To shortchange federal transportation programs in 
these areas I think would be a terrible mistake.
    Instead of making the investments that would improve our 
transportation system, it has been proposed that $119 billion 
less be spent on our country's surface transportation system, 
the amount needed to maintain the status quo, and that is 
according to U.S. DOT. In addition, the President's 2006 budget 
proposal calls for bankrupting our passenger rail system. To do 
this in the wake of 9/11, when that was the one mode of 
transportation that worked when our aviation system was shut 
down, is outrageous.
    The administration continues, I think, to risk the safety 
and security of air travelers by pursuing the outsourcing and 
privatization of air traffic control and aviation security 
functions. Did we not learn anything from 9/11, when the 
terrorists were able to board planes with deadly weapons? When 
it comes to airline security, we have got to put passengers 
first.
    We take our highways, our rail system, and our airports for 
granted. But the future efficiency and safety of our 
transportation systems are not guaranteed unless we provide the 
leadership in building a national transportation system for the 
21st century.
    If present trends continue, freight traffic on our highways 
will double, adding lots more trucks to our roads. Commuters 
will spend more time stuck in traffic and as highway congestion 
becomes commonplace in more places we are going to have more 
pollution resulting. The lines and delays at airports are going 
to get worse.
    If we follow the course laid out by the Administration, we 
are looking at gridlock on our roads and on our airport runways 
and few choices for travelers. I travel by air frequently 
between here and home and often we are stuck at the airport 
waiting for traffic to clear. We have narrowed the separation 
between airplanes to try and accommodate more airplanes in the 
sky and to suddenly think that we can be better off without our 
national passenger railroad system just does not make sense.
    It is a grim picture. I know many of my colleagues share my 
concerns and I hope we can make a difference.
    I thank our witnesses for being here today, for their 
intention to help move transportation concerns further along 
with our needs. I look forward to working with them.
    Mr. Chairman, thank you very much.
    The Chairman. Senator Inouye, do you have any comments to 
make?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, I thank you very much. I wish 
to congratulate our two ladies, Ms. Scheinberg and Ms. Cino, 
and welcome our colleagues. I have a prepared statement I would 
like to make part of the record.
    The Chairman. Without objection, it will be put in the 
record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Good Morning, Ms. Cino and Ms. Scheinberg. Thank you for appearing 
before us as we consider your nominations to become Deputy Secretary of 
the Department of Transportation and Assistant Secretary for Budget and 
Programs and Chief Financial Officer to the Department of 
Transportation, respectively.
    I look forward to hearing your views of how your past experiences 
will assist you in addressing the challenges posed by these positions.
    Ms. Cino, we are depending on you to offer steady leadership at the 
Department, and to make certain that the safety of our nation's 
transportation system remains the top priority at the agency.
    At the same time, you must provide the necessary guidance to 
develop and advance credible concepts to enhance the national 
transportation system and improve the movement of goods and people 
across the United States.
    I am extremely concerned by the Administration's funding plans for 
the nation's aviation programs in recent years. The Federal Aviation 
Administration (FAA) has seen massive cuts to their Facilities and 
Equipment (F&E) account since Fiscal Year (FY) 2004, which will place 
our international leadership in the realm of aerospace in jeopardy and 
damage our ability to address the pending capacity and congestion 
crisis in our skies.
    Along with proposed reductions to the Airport Improvement Program 
(AIP), President Bush has cut more than $1 billion in critical aviation 
funding in the past two years. You must provide direction at the 
Department to make certain aviation needs are properly funded.
    I am also concerned about the lack of compromise that has delayed 
important transportation laws. Currently, Congress is working to pass 
the highway funding legislation, but we have been stuck in this log jam 
since last Congress. I believe we could have passed a good bill that 
would have provided crucial funding and important job opportunities if 
the Administration would show flexibility and provide the needed 
guidance to get this done.
    Similarly, the Department's radical Amtrak reauthorization plan and 
budget proposal to bankrupt the railroad, developed without 
consultation with our Committee, suggests that the Administration is 
more interested in making grand statements than sincerely working with 
the Congress to improve intercity passenger rail service in our 
country. I believe, and I hope you agree, that building the bridges of 
communication with the legislative branch is an essential task of every 
nominee.
    The position for which you are nominated will be particularly 
important in the immediate future, especially as we work toward 
domestic and international agreements in various aspects of aviation. 
We need someone who will work with Congress.
    Ms. Scheinberg, you also have a great task before you as fiscal 
belt tightening is occurring across the Federal Government while the 
nation's transportation system has greater funding needs than ever.
    Again, thank you for appearing before us today. I look forward to 
hearing your testimony.

    The Chairman. Senator Clinton, we would be pleased to have 
you introduce Ms. Cino.

           STATEMENT OF HON. HILLARY RODHAM CLINTON, 
                   U.S. SENATOR FROM NEW YORK

    Senator Clinton. Thank you, Mr. Chairman, and thanks to you 
and Senator Inouye, Senator McCain, and Senator Lautenberg for 
allowing me to come today and introduce a native New Yorker to 
you.
    Mary Cino is currently serving as Counselor to the 
Secretary of Transportation and she has been nominated by the 
President to serve as the Deputy Secretary of Transportation. 
She was born and raised in Buffalo, New York, which is one of 
the greatest cities in the country. She is a graduate of St. 
John Fisher College in Rochester, New York, another great city 
in upstate New York, and she worked for years for former 
Congressman Bill Paxon, eventually becoming his chief of staff. 
She has recently served as Assistant Secretary and Director 
General of the United States and Foreign Commercial Service at 
the U.S. Department of Commerce.
    As you consider her nomination, I know the Committee has 
several important policy matters that are before you. Senator 
Lautenberg referred to some of them. The Department of 
Transportation is the key agency responsible for overseeing the 
formulation of national transportation policy and promoting 
intermodal transportation across our Nation. This is an 
important job at any time, but I think it is particularly 
crucial at this moment in our country's history.
    Mary Cino comes with a lot of energy, a lot of 
intelligence, and certainly a great network of friends and 
extended family. She introduced James Carville and Mary Matalin 
and their daughters Mattie and Emma, who are her goddaughters. 
She has a great desire to serve in public service.
    I am very concerned about a lot of the issues that she will 
be responsible for dealing with and I hope that as we consider 
the new transportation bill that will be before the Senate this 
week we will consider the role of national passenger rail, we 
will consider the possibility of being visionary enough to look 
at high-speed rail. It would be a great boon to upstate New 
York to have high-speed train between Cleveland and Buffalo, 
between Buffalo and New York City.
    I also hope that we will look at some of the aviation 
issues. Mr. Chairman, the New York TRACON is one of the busiest 
air traffic control facilities in the Nation and the number of 
errors have been reported to be increasing due to increased 
demand on the controllers. As someone who flies in and out of 
New York airports every single week, I am very concerned and 
will continue to work with the Department of Transportation, 
the FAA, and this Committee to make sure that air travel is 
safe in the air as well as when we board our planes because of 
the increased need for security.
    I hope the Committee will also work with Ms. Cino and the 
Department of Transportation to ensure that Essential Air 
Service remains funded. It is designed to provide air service 
to small isolated communities and, although I know many of my 
colleagues, when you think of New York, you think of Manhattan, 
but it has huge areas of isolation and sparse population and 
essential air service in the north country near Fort Drum, as 
well as in western New York near Buffalo, where Ms. Cino grew 
up, is very important to our continuing economic prosperity.
    Also, going hand in hand with that is the plans recently 
announced to close air traffic control facilities. Towers at 
the greater Rochester, Albany, and Syracuse Hancock 
International Airports could be potentially impacted, which 
would close control towers from midnight to 5 a.m., which would 
have consequences for aviation across our state.
    So it is exciting to see someone from New York, who 
understands these problems, being nominated for this important 
position. I look forward to working with you on the Committee 
and, should Ms. Cino be confirmed, working with her to deal 
with so many of the issues that are important to New York and 
America.
    I thank you for the courtesy of allowing me to appear. 
Thank you.
    The Chairman. Senator Allen, would you introduce Ms. 
Scheinberg, please.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you. Mr. Chairman, Senator Inouye, 
Senator McCain, Senator Lautenberg: I am here to introduce two 
highly qualified Virginians who have been nominated to serve at 
the Department of Transportation. Both have distinguished 
careers in public service and will help tackle the daunting 
tasks and problems that face our Nation's transportation 
system.
    Let me first start with Maria Cino. She may be from 
Buffalo, as are Jack Kemp, Jim Kelly, Bruce Smith at one time 
and Marv Levy, but I am glad she moved to Virginia. I will not 
list all Virginia transportation priorities other than to say I 
am glad that she is in Virginia and will have to cross over 
bridges, understands the importance of high-speed rail, and we 
are happy to work with her to re-open Reagan National Airport 
to general aviation, an issue for this Committee.
    Senator McCain. These are issues for the Committee.
    Senator Allen. Excuse me? They are. I have a bill and I 
know you will all be supportive of it, and I do not think it is 
actually the Department of Transportation that is the problem.
    My relationship and friendship with Maria go back to 1991 
when she was chief of staff to Bill Paxon. She has worked in a 
number of positions in the private as well as public sector. As 
was stated by Senator Clinton, she was appointed by President 
Bush and also confirmed by the U.S. Senate as Assistant 
Secretary and Director General of the U.S. and Foreign 
Commercial Service. In that role--it is important to understand 
the management and the responsibility in that role--she managed 
a worldwide group that helped small and medium-sized businesses 
export their product or provide their services abroad and also 
sought to protect our small businesses overseas.
    She oversaw and distributed an annual budget of $200 
million and supervised 1,700 employees at 105 domestic offices 
and 162 international offices. While at Commerce, where showing 
good management and making sure you have a capable, skilled 
work force are so important, she worked to create the 
professional development department to provide consistent and 
ongoing training for headquarters, domestic, and international 
staff.
    She also has worked in the private sector as a public 
policy and government affairs consultant to the law firm of 
Wiley Rein and Fielding in Washington, DC. During this time she 
used her management, legislative and political experience to 
represent corporations and trade associations on a wide range 
of issues before Congress.
    I have worked with her over the years and I can say to my 
colleagues she is an outstanding individual. She has strong 
management skills. She has a good, calm head on her shoulders 
and she gets the job done. I think with her cheerful 
personality and successful leadership, Maria Cino will be an 
outstanding Deputy Secretary of Transportation.
    It is also my pleasure to introduce and present to the 
Committee Phyllis Scheinberg as the nominee for Assistant 
Secretary for Budget and Programs and Chief Financial Officer 
at the Department of Transportation. Phyllis has also served in 
a number of roles in government. She comes to this nomination 
as the Deputy Assistant Secretary of Transportation for Budget 
and Programs, overseeing the development and presentation of 
the Department of Transportation's budget requirements.
    Prior to joining the Department of Transportation, Ms. 
Scheinberg was the Director of Transportation Issues at the 
General Accounting Office, where she directed reports, 
testimony, and briefings on a multitude of surface 
transportation issues. In this capacity, she testified before 
Congress on topics including the financial viability of 
Amtrak--I know that is a key concern of this Committee, 
particularly to Senator McCain--and also on a particularly 
relevant topic today, the reauthorization of TEA-21.
    Before working on transportation issues at GAO, Phyllis 
served as a Senior Budget Examiner for Transportation and 
Natural Resources at the Office of Management and Budget. She 
originally came to Washington, DC, as a presidential management 
intern in 1979.
    She has been a resident of the Commonwealth of Virginia for 
26 years. She and her husband David Turner live in North 
Arlington. Both her children, Diane and Eric, attend public 
schools. Eric is currently a student at the Thomas Jefferson 
High School for Science and Technology. She also recruited her 
80-year-old father to move to Virginia as well.
    So, Mr. Chairman, thank you for holding a hearing in a 
prompt manner on these two outstanding, exceptional, well 
qualified nominees who have shown good judgment. They could 
live in a lot of different places when coming to this region. 
Both chose wisely in going to Virginia.
    Thank you very much.
    The Chairman. Thank you very much, Senator.
    Without objection, I will print the statement I would have 
made at the beginning of the hearing and turn to Ms. Cino for 
any comments she wishes to make.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    The Committee will come to order.
    I thank the Committee for meeting on short notice for today's 
hearing on the nominations of Maria Cino and Phyllis Scheinberg.
    President Bush nominated Maria Cino to be Deputy Secretary of 
Transportation on April 6, 2005.
    Her previous positions in government include 2 years as Assistant 
Secretary of Commerce and Director General of the Foreign Commercial 
Service.
    She led the Administration's export promotion effort at the 
Commerce Department. She managed 1,700 employees at an agency with 
offices in more than 80 countries.
    The President nominated Phyllis Scheinberg to be Assistant 
Secretary of Transportation on April 14, 2005.
    Ms. Scheinberg has a distinguished career in federal service 
devoted to transportation issues. She has served as Deputy Assistant 
Secretary of DOT, as a director of transportation issues at GAO, and as 
a budget examiner at OMB.
    She brings vital experience to a department with enormous financial 
responsibilities, including the aviation and highway trust funds and 
new rail infrastructure projects.
    I thank the witnesses for their testimony today.

                STATEMENT OF MARIA CINO, DEPUTY 
       SECRETARY-DESIGNATE, DEPARTMENT OF TRANSPORTATION

    Ms. Cino. Thank you, Chairman Stevens, Senator Inouye, and 
Members of the Committee. It is an honor for me to appear 
before you today as President Bush's nominee to serve as the 
next Deputy Secretary of Transportation. I would especially 
like to thank Senator Clinton from my home State of New York 
for her kind words, and I would like to thank my friend Senator 
Allen, from my now home State of Virginia, for his kind words.
    I am grateful to President Bush and our Secretary of 
Transportation, Norm Mineta, for the support of my nomination. 
I am a great admirer of Secretary Mineta. He is a statesman in 
the truest sense of the word and he is incredibly knowledgeable 
and passionate about our Nation's transportation system.
    As the Members of this Committee understand so well, 
transportation is the engine that drives the American economy. 
It is imperative to keep the Department responsible for this 
vital network operating at peak efficiency as we approach the 
challenging road ahead.
    The Deputy Secretary is the chief operating officer of the 
Department, responsible for seeing this Nation's vast network 
of highways and railways, seaways, airports, pipelines, and 
transit systems continue to operate safely, reliably, and 
efficiently, all the while looking ahead to anticipate and 
prepare for tomorrow's transportation demands in an 
increasingly interconnected world.
    While I could not claim to have Secretary Mineta's vast 
expertise on transportation, what I will be able to bring to 
the Department should I be confirmed is the benefit of nearly 
25 years of managing and leading field-based operations, 
developing and adhering to complex budgets, setting short and 
long-term strategic goals, building coalitions, developing, 
motivating, and mentoring staffs.
    Included in this experience is an understanding of the 
importance of working with Members of Congress on both sides of 
the aisle and an extensive network of contacts in federal, 
state, and local agencies. During the President's first term, I 
had the privilege of being confirmed by the Senate for the 
position of Assistant Secretary and Director General of the 
United States Foreign Commercial Service. In fact, it was 4 
years ago almost to the day on which I appeared here before 
this Committee and the Committee on Banking, Housing, and Urban 
Affairs.
    My experience as Director General of the Commercial Service 
instilled a deep appreciation of the dedicated and 
compassionate public servants who work for America. I relied on 
their expertise and advice to do my job and I believe that my 
leadership skills and management strengths helped them to do 
their jobs.
    At the Commercial Service, my job was helping connect U.S. 
businesses with export opportunities, giving me a firsthand 
look at the critical role of transportation networks in a 
global economy. Transportation links were major considerations 
and major factors in our success, whether it was the 
availability of air service to connect potential buyers and 
sellers or the entire intermodal system chain that served as 
the essential artery through which international commerce 
flows.
    I know of no Department that affects more people's life as 
directly as Transportation. If confirmed, I look forward to the 
opportunity to help this essential Department and its employees 
continue to excel and to make sure that the Department invests 
its resources wisely and well to deliver the infrastructure 
that will keep America and the American economy moving forward.
    Again, I thank you for this opportunity to appear today and 
I am happy to answer any questions.
    [The prepared statement and biographical information of Ms. 
Cino follows:]

     Prepared Statement of Maria Cino, Deputy Secretary-Designate, 
                      Department of Transportation
    Thank you, Chairman Stevens, Senator Inouye, and Members of the 
Committee.
    It is an honor for me to appear before you today as President 
Bush's nominee to serve as the next Deputy Secretary of Transportation.
    I am grateful to President Bush and Secretary of Transportation 
Norm Mineta for their support of my nomination. I am a great admirer of 
Secretary Mineta. He is a statesman in the truest sense of the word, 
and he is incredibly knowledgeable and passionate about our Nation's 
transportation system.
    As the Members of this Committee understand so well, transportation 
is the engine that drives the American economy. It is imperative to 
keep the Department responsible for this vital network operating at 
peak efficiency as we approach a challenging road ahead.
    The Deputy Secretary is the Chief Operating Officer of the 
Department responsible for seeing that this Nation's vast network of 
highways and railways, our seaways, airports, pipelines, and transit 
systems continue to operate safely, reliably, and efficiently all the 
while looking ahead to anticipate and prepare for tomorrow's 
transportation demands in an increasingly interconnected world.
    While I cannot claim to have Secretary Mineta's vast expertise on 
transportation, what I will be able to bring to the Department, should 
I be confirmed, is the benefit of my nearly 25 years of managing and 
leading field-based organizations; developing and adhering to complex 
budgets; setting short- and long-term strategic goals; building 
coalitions; and developing, motivating, and mentoring staffs.
    Included in this experience is an understanding of the importance 
of working with Members of Congress on both sides of the aisle, and an 
extensive network of contacts in federal, state, and local agencies.
    During the President's first term, I had the privilege of being 
confirmed by the Senate for the position of Assistant Secretary and 
Director General of the Department of Commerce's United States and 
Foreign Commercial Service. This office is charged with export 
promotion and at that time had offices in 85 countries and 47 states 
and 1,700 employees.
    In fact, it was 4 years ago, almost to the day, on which I appeared 
before this very Committee as well as the Committee on Banking, Housing 
and Urban Affairs for confirmation hearings for that position.
    My experience as Director General of the Commercial Service 
instilled a deep appreciation of the dedicated and compassionate public 
servants who work for America. I relied on their expertise and advice 
to do my job, and I believe that my leadership skills and management 
strengths helped them to do their jobs better.
    At the Commercial Service, my job was helping connect U.S. 
businesses with export opportunities, giving me a first-hand look at 
the critical role of transportation networks in the global economy.
    Transportation links were major considerations, and major factors 
in our success, whether it was the availability of air services to 
connect potential buyers and sellers or the entire intermodal supply 
chain that serve as the essential artery through which international 
commerce flows.
    I know of no Department that affects more peoples' lives as 
directly as Transportation. If confirmed, I look forward to the 
opportunity to help this essential Department and its employees 
continue to excel, and to make sure that the Department invests its 
resources wisely and well to deliver the infrastructure that will keep 
America, and the American economy, moving forward.
    Again, thank you for the opportunity to appear before you today, 
and I will be happy to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Maria Cino.
    2. Position to which nominated: Deputy Secretary for the Department 
of Transportation.
    3. Date of Nomination: April 6, 2005.
    4. Address (List current place of residence and office addresses): 
Information not released to the public.
    5. Date and Place of Birth: April 19, 1957 in Buffalo, New York.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage): Single, no children
    7. List all college and graduate degrees. Provide year and school 
attended.

        School: St. John Fisher College
        Attended: 1975-1979
        Degree: BA-Political Science
        Degree Granted: May 1979

        School: University of Dayton School of Law
        Attended: 1979-1980
        Degree: Did not complete.
        Degree Granted: None.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Republican National Committee
        Deputy Chairman
        June 2003-April 2005

        Department of Commerce
        Assistant Secretary for Commerce and Director General of the 
        United States and Foreign Commercial Service
        April 2001- June 2003

        Republican National Committee
        Deputy Chairman for Political Operations and Congressional 
        Affairs
        Washington, DC
        May 2000-March 2001

        Bush for President, Inc.
        National Political Director
        Austin, TX
        March 1999-April 2000

        Wiley, Rein & Fielding
        Government Affairs Consultant
        Washington, DC
        March 1997-March 1999

        National Republican Congressional Committee
        Executive Director
        Washington, DC
        January 1993-March 1997

        Congressman Bill Paxon
        Chief of Staff
        Washington, DC
        January 1989- January 1993

        Paxon for Congress
        Campaign Manager
        West Seneca, NY
        August 1988-December 1988

        American View Point
        Research Analyst
        Alexandria, VA
        January 1986- July 1988

        Republican National Committee
        Executive Assistant to the Political Director, January 1985- 
        January 1986
        State and Local Programs Director, January 1983- January 1985
        Program Director, Political Education, July 1981- January 1983
        Washington, DC

        Bo Sullivan for Governor
        Assistant Research Director
        Bo Sullivan for Governor Committee
        Essex, New Jersey
        January 1981- June 1981

    9. List any advisory, consultative, honorary or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last 5 years.

        Department of Commerce
        Senior Advisor
        April 2001- June 2003

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Wish List--Political Group
        Board Member
        1997-1999

        VIEW PAC--Political Group
        President
        1997-2000

        Enterprise Works--Non-Profit
        Trustee
        1988-2001, resigned 02/01

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        National Republican Congressional Committee, Executive 
        Director, 1993-1997

        Bush for President, Inc., National Political Director, 1999-
        2000

        Republican National Committee, Deputy Chairman of Political 
        Operations and Congressional Affairs, 2000-2001

        Wish List, Board, 1997-1999

        VIEW PAC, President, 1997-1999

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Political Contributions:
          VIEW PAC $1,000
          Wish List $1,500
          Collins for Senate $500
          Swift Committee $500
          Lazio 2000, Inc. $1,000
          Bush for President $2,000

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        St. John Fisher College--Honorary Doctorate

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        I have not authored any books, articles, columns or 
        publications. Speeches I have given over the past decade are 
        related to political updates and the political environment. 
        Additionally, while at the Department of Commerce, U.S. Foreign 
        Commercial Service, I gave speeches promoting President Bush's 
        Free Trade Agreement and the importance of trade.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        Please refer to the U.S. Department of Transportation Office of 
        General Counsel's Opinion Letter.

    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.

        While employed at the Department of Commerce, U.S. Foreign & 
        Commercial Service, I promoted President Bush's Free Trade 
        Agreement and the importance of trade.

    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        Please refer to the U.S. Department of Transportation Office of 
        the General Counsel's Opinion Letter.

                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.

        While serving as Executive Director of the National Republican 
        Congressional Committee (01/1993-03/1997) and as Deputy 
        Chairman of the Republican National Committee (06/2003-04/
        2005), complaints were lodged against the Committees by the 
        Federal Election Commission.
        It is very common to have political organizations file 
        complaints with the Federal Election Commission, especially 
        during an election year. The National Republican Congressional 
        Committee and the Republican National Committee, likewise file 
        complaints against other political organizations.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    Ms. Scheinberg, do you have a statement?

         STATEMENT OF PHYLLIS F. SCHEINBERG, ASSISTANT 
          SECRETARY OF TRANSPORTATION FOR BUDGET AND 
          PROGRAMS/CHIEF FINANCIAL OFFICER-DESIGNATE, 
                  DEPARTMENT OF TRANSPORTATION

    Ms. Scheinberg. Yes, sir. Thank you, Mr. Chairman, Senator 
Inouye, Senator McCain, and Senator Lautenberg. I want to thank 
Senator Allen for his kind introduction. It is an honor for me 
to appear before you today, having been selected by Secretary 
Mineta and President Bush for the position of Assistant 
Secretary for Budget and Programs and Chief Financial Officer 
of the Department of Transportation. If confirmed, I look 
forward to working with you closely and this Committee on 
transportation issues.
    Throughout almost 26 years of federal service, I have 
worked in the area of transportation finance and oversight. 
During this time I have come to understand and appreciate the 
vital role that a safe, secure, and dependable transportation 
system plays in keeping our economy strong. I also understand 
the importance of the Executive and Legislative branches 
working together as a team to improve the Nation's 
transportation policies, programs, and financing.
    For many years I have worked closely with the Congress and 
this Committee in particular. If confirmed, I look forward to 
working with all of you as we develop new solutions to our 
Nation's transportation needs.
    I recognize the significant investment American taxpayers 
have made in developing, maintaining, and improving our 
transportation system. That is why as Assistant Secretary and 
CFO, my top priority would be to ensure that our financial 
investment in transportation is managed as effectively and 
efficiently as possible.
    I am committed to continued improvement of the processes 
and systems needed to ensure proper oversight of the funds 
entrusted to us. We have a responsibility to ensure that the 
traveling public and our business community receive the 
greatest return on their transportation investment.
    As a career public servant, I am deeply honored to be 
considered for this important position. Over the years, I have 
seen firsthand the positive benefits that open exchange of 
information and collaboration can provide in addressing 
transportation issues. I am proud to have dedicated my career 
to this important mission.
    If confirmed as Assistant Secretary and CFO, I pledge to 
work closely with the Congress, to be a good steward of 
American transportation dollars, and to safeguard the financial 
resources of the Department of Transportation.
    Thank you again and I look forward to any questions you may 
have.
    [The prepared statement and biographical information of Ms. 
Scheinberg follows:]

  Prepared Statement of Phyllis F. Scheinberg, Assistant Secretary of 
        Transportation for Budget and Programs/Chief Financial 
            Officer-Designate, Department of Transportation
    Thank you, Mr. Chairman, Senator Inouye and Members of the 
Committee. It is an honor for me to appear before you today and to have 
been selected by Secretary Mineta and President Bush for the position 
of the Assistant Secretary for Budget and Programs and Chief Financial 
Officer at the Department of Transportation. If confirmed, I look 
forward to working closely with this Committee on transportation 
issues.
    Throughout almost 26 years of federal service, I have worked in the 
area of transportation finance and oversight. During this time, I have 
come to understand and appreciate the vital role that a safe, secure, 
and dependable transportation system plays in keeping our economy 
strong. I also understand the importance of the Executive and 
Legislative Branches working together as a team to improve the nation's 
transportation policies, programs, and financing. For many years, I 
have worked closely with the Congress and this Committee, in 
particular. If confirmed, I look forward to working with all of you as 
we develop new solutions for our nation's transportation needs.
    I recognize the significant investment American taxpayers have made 
in developing, maintaining, and improving transportation. That is why, 
as Assistant Secretary and CFO, my top priority would be to ensure that 
our financial investment in transportation is managed as effectively 
and efficiently as possible. I am committed to continued improvement of 
the processes and systems needed to ensure proper oversight of the 
funds entrusted to us. We have a responsibility to ensure that the 
traveling public and our business community receive the greatest return 
on their transportation investment.
    As a career public servant, I am deeply honored to be considered 
for this important position. Over the years, I have seen first hand the 
positive benefits that open exchange of information and collaboration 
can provide in addressing transportation issues. I am proud to have 
dedicated my career to this important mission. If confirmed as 
Assistant Secretary and CFO, I pledge to work closely with the 
Congress, to be a good steward of American's transportation dollars, 
and to safeguard the financial resources of the Department of 
Transportation.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used):

        Phyllis Factor Scheinberg
        Phyllis Ann Factor
        Phyllis Turner

    2. Position to which nominated: Assistant Secretary of 
Transportation for Budget and Programs and Chief Financial Officer.
    3. Date of Nomination: April 14, 2005
    4, Address: (List current place of residence and office addresses).

        Residence: Information not released to the public.
        Office: U.S. Department of Transportation 400 7th Street, SW, 
        Room 10101 Washington, DC 20590.

    5. Date and Place of Birth: 02/20/48--Everett, Massachusetts.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage):

        Husband: David Lee Turner
          Telecommunications Engineer
          U.S. Fish and Wildlife Service
          Fairfax Drive
          Arlington, VA.

        Children:
          Dianne Barbra Scheinberg, 30
          Eric Lee Turner, 16

    7. List all college and graduate degrees. Provide year and school 
attended.

        1974-1979  University of California, Irvine--M.S.
        1965-1969  Simmons College, Boston, MA--B.A.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        04/01-present  Deputy Assistant Secretary, DOT, Washington, DC
        07/90-04/01  Director, U.S. General Accounting Office, 
        Washington, DC
        08/81-07/90  Budget Examiner, OMB, Washington, DC
        01/81-08/81  Policy Analyst, FEMA. Washington, DC
        07/79-01/81  Presidential Management Intern, U.S. GPO, 
        Washington, DC

    9. List any advisory, consultative, honorary or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant or any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        General Partner, Vista Apartments, Palo Alto, CA.

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Director, American Association for Budget & Policy Analysis
        Falls Church, VA
        (non-profit professional organization, 1995-2000)

        Member, Parent Teachers Association at the following Arlington 
        Public Schools
          Jamestown Elementary School (1994-2000)
          Williamsburg Middle School, Arlington, VA (2003-2003)
          Thomas Jefferson High School for Science & Tech, Fairfax, VA 
        (2003-present)

        Member, Temple Rodef Shalom, Falls Church, VA, 1982-present

        (None of these organizations restricts membership)

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        2002  Transportation 9/11 Medal
        2003  Presidential Rank Award of Meritorious Executive

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        While at the General Accounting Office (currently the 
        Government Accountability Office), I authored or co-authored 
        the following GAO Reports and Testimony:

        03/21/01  Intercity Passenger Rail: Assessing the Benefits of 
        Increased Federal Funding for Amtrak and High-Speed Passenger 
        Rail Systems, GAO-01-480T.

        02/14/01  Highway Infrastructure: FHWA's Model for Estimating 
        Highway Needs Has Been Modified for State-Level Planning, GAO-
        01-299.

        01/31/01  Motor Vehicle Safety: NHTSA's Ability to Detect and 
        Recall Defective Replacement Crash Parts Is Limited, GA0-01-
        225.

        11/17/00  Metropolitan Washington Airports Authority: 
        Information on Contracting at Washington Dulles International 
        Airport and Ronald Reagan Washington National Airport Between 
        1992 and 1999, GAO-01-185R.

        11/9/00  Mass Transit: Review of the South Boston Piers 
        Transit-way Finance Plan, GAO-01-174R.

        09/29/00  Intercity Passenger Rail: Decisions on the Future of 
        Amtrak and Intercity Passenger Rail Are Approaching, T-RCED-00-
        277.

        09/15/00  Mass Transit: Project Management Oversight Benefits 
        and Future Funding Requirements, RCED-00-221.

        08/30/00  Transit Grants: Need for Improved Predictability, 
        Data and Monitoring in Application Processing, RCED-00-260.

        07/31/00  Hazardous Materials Training: DOT and Private Sector 
        Initiatives Generally Complement Each Other, RCED-00-190.

        07/17/00  Commercial Motor Vehicles: Effectiveness of Actions 
        Being Taken to Improve Motor Carrier Safety is Unknown, RCED-
        00-189.

        06/29/00  Highway Funding: Problems With Highway Trust Fund 
        Information Can Affect State Highway Funds, RCED/AIMD-00-148.

        06/05/00  Highway Infrastructure: FHWA's Model for Estimating 
        Highway Needs Is Generally Reasonable, Despite Limitations, 
        RCED-00-133.

        05/31/00  Intercity Passenger Rail: Amtrak Will Continue to 
        Have Difficulty Controlling Its Costs and Meeting Capital 
        Needs, RCED-00-138.

        05/15/00  Pipeline Safety: The Office of Pipeline Safety Is 
        Changing How It Oversees the Pipeline Industry, RCED-00-128.

        04/28/00  Mass Transit: Implementation of FTA's New Starts 
        Evaluation Process and FY 2001 Funding Proposals, RCED-00-149.

        04/25/00  Transit Grants: Department of Labor's Certification 
        Process, 
        T-RCED-00-157.

        03/31/00  Mass Transit: Review of the Bay Area Rapid Transit 
        District's Airport Extension Finance Plan, RCED-00-95R.

        03/31/00  Mass Transit: Review of the Tren Urbano Finance Plan, 
        RCED-00-09R.

        03/15/00  Intercity Passenger Rail: Increasing Amtrak's 
        Accountability for Its Taxpayer Relief Act Funds, T-RCED-00-
        116.

        03/08/00  Mass Transit: Challenges in Evaluating, Overseeing, 
        and Funding Major Transit Projects, T-RCED-00-104.

        03/02/00  Commercial Motor Vehicles: Significant Actions Remain 
        to Improve Truck Safety, T-RCED-00-102.

        02/29/00  Intercity Passenger Rail: Amtrak Needs to Improve Its 
        Accountability for Taxpayer Relief Act Funds, RCED/AIMD-00-78.

        10/15/99  Mass Transit: Mobility Improvements Is One of the 
        Many Factors Used to Evaluate Mass Transit Projects, RCED-00-
        6R.

        09/27/99  Transportation Infrastructure: Better Data Needed to 
        Rate the Nation's Highway Conditions, RCED-99-264.

        09/24/99  Transportation Infrastructure: FHWA Should Assess and 
        Compare the Benefits of Projects When Awarding Discretionary 
        Grants, RCED-99-263.

        08/19/99  Mass Transit: Status of New Starts Transit Projects 
        With Full Funding Grant Agreements, RCED-99-240.

        07/09/99  Intercity Passenger Rail: Amtrak's Progress in 
        Improving Its Financial Condition Has Been Mixed, RCEC-99-181.

        06/23/99  Highway Safety: Effectiveness of State .08 Blood 
        Alcohol Laws, RCED-99-179.

        06/09/99  Transportation Infrastructure: Impacts of Utility 
        Relocations on Highway and Bridge Projects, RCED-99-131.

        06/01/99  Transportation Infrastructure: Advantages and 
        Disadvantages of Wrap-Up Insurance for Large Construction 
        Projects, RCED-99-155.

        04/26/99  Mass Transit: FTA's Progress in Developing and 
        Implementing a New Starts Evaluation Process, RCED-99-113.

        04/16/99  Railroad Regulation: Changes in Railroad Rates and 
        Service Quality Since 1990, RCED-99-93.

        03/17/99  Truck Safety: Effectiveness of Motor Carriers Office 
        Hampered by Data Problems and Slow Progress on Implementing 
        Safety Initiatives, 
        T-RCED-99-122.

        02/26/99  Railroad Regulation: Current Issues Associated With 
        the Rate Relief Process, RCED-99-46.

        02/23/99  Truck Safety: Motor Carriers Office's Activities to 
        Reduce Fatalities Are Likely to Have Little Short-term Effect, 
        T-RCED-99-89.

        01/14/99  Surface Infrastructure: High-Speed Rail Projects in 
        the United States, RCED-99-44.

        06/05/98  Intercity Passenger Rail: Prospects for Amtrak's 
        Financial Viability, RCED-98-211R.

        05/20/98  Mass Transit: FTA's New Starts Funding Criteria, 
        RCED-98-189R.

        05/20/98  Rail Transportation: Federal Railroad 
        Administration's Safety Programs, T-RCED-98178.

        05/19/98  Transportation Infrastructure: Supplemental 
        Information on the Federal Highway Administration's Project 
        Selection Process for Five Discretionary Programs, RCED-98-
        179R.

        05/14/98  Intercity Passenger Rail: Financial Performance of 
        Amtrak's Routes, RCED-98-151.

        04/24/98  Highway Trust Fund: Financial Condition as of 
        September 30, 1997, RCED-98-171R.

        04/21/98  Surface Transportation: Issues Associated With 
        Pipeline Regulation by the Surface Transportation Board, RCED-
        98-99.

        03/31/98  Surface Transportation: Issues Associated With 
        Pipeline Regulation by the Surface Transportation Board, T-
        RCED-98-127.

        03/24/98  Intercity Passenger Rail: Outlook for Improving 
        Amtrak's Financial Health, T-RCED-98-134.

        03/02/98  Intercity Passenger Rail: Issues Associated With a 
        Possible Amtrak Liquidation, RCED-98-60.

        02/27/98  Surface Transportation: Improvements in the Bureau of 
        Transportation Statistics' Commodity Flow Survey, RCED-98-90R.

        02/12/98  Surface Infrastructure: Costs, Financing and 
        Schedules for Large-Dollar Transportation Projects, RCED-98-64.

        02/06/98  Highway Trust Fund: Possible Impact If It Had 
        Financed All Highway Expenditures, RCED-98-78R.

        12/19/97  Highway Safety: NHTSA's Motorcycle Helmet Activities, 
        RCED-97-44R.

        11/21/97  Transportation Infrastructure: Highway Pavement 
        Design Guide Is Outdated, RCED-97-9.

        11/07/97  Transportation Infrastructure: Review of Project 
        Selection Process for Five FHWA Discretionary Programs, RCED-
        97-14.

        11/04/97  Federal Highway Programs: Status of Federal Highway 
        Programs in the Absence of Reauthorization, T-RCED-97-38.

        11/03/97  Commercial Motor Carriers: DOT is Shifting to 
        Performance-Based Standards to Assess Whether Carriers Operate 
        Safely, RCED-97-8.

        08/08/97  Commercial Passenger Vehicles: Safety Inspection of 
        Commercial Buses and Vans Entering the United States From 
        Mexico, RCED-97-194.

        07/23/97  Rail Transportation: Federal Railroad 
        Administration's New Approach to Railroad Safety, RCED-97-142.

        06/30/97  Federal-Aid Highway Program: Impact of the District 
        of Columbia Emergency Highway Relief Act, RCED-97-162.

        06/25/97  Highway Safety: NHTSA's Activities Concerning State 
        Motorcycle Helmet Laws, RCED-97-185R.

        06/05/97  Highway Funding: The Federal Highway Administration's 
        Funding Apportionment Model, RCED-97-159.

        05/30/97  Surface Transportation: Regional Distribution of 
        Federal Highway Funds, RCED/HEHS-97-167R.

        04/29/97  Surface Transportation: States Are Experimenting With 
        Design-Build Contracting, RCED-97-138R.

        04/23/97  Intercity Passenger Rail: Amtrak's Financial Crisis 
        Threatens Continued Viability, T-RCED-97-147.

        04/09/97  Commercial Trucking: Safety Concerns About Mexican 
        Trucks Remain Even as Inspection Activity Increases, RCED-97-
        68.

        03/13/97  Intercity Passenger Rail: The Financial Viability of 
        Amtrak Continues to be Threatened, T-RCED-97-94.

        03/12/97  Intercity Passenger Rail: Amtrak's Financial 
        Viability Continues to be Threatened, T-RCED-97-80.

        03/06/97  Surface Transportation: Prospects for Innovation 
        Through Research, Intelligent Transportation Systems, State 
        Infrastructure Banks, and Design-Build Contracting, T-RCED-97-
        83.

        02/28/97  Transportation Infrastructure: Managing the Costs of 
        Large-Dollar Highway Projects, RCED-97-47.

        02/26/97  Transportation Infrastructure: States' Implementation 
        of Transportation Management Systems, T-RCED-97-79.

        01/13/97  Transportation Infrastructure: States' Implementation 
        of Transportation Management Systems, RCED-97-32.

        12/04/96  Commuter Rail Service in Wisconsin and Illinois, 
        RCED-99-29R.

        10/31/96  State Infrastructure Banks: A Mechanism to Expand 
        Federal Transportation Financing, RCED-97-9.

        09/17/96  Urban Transportation: Metropolitan Planning 
        Organizations' Efforts to Meet Federal Planning Requirements, 
        RCED-96-200.

        09/06/96  Surface Transportation: Research Funding, Federal 
        Role, and Emerging Issues, RCED-96-233.

        08/30/96  BART Airport Extension Update, RCED-96-246R.

        07/26/96  Transportation Enhancements: Status of the $2.4 
        Billion Authorized for Non-motorized Transportation, RCED-96-
        156.

        07/24/96  Amtrak's Strategic Business Plan: Progress to Date, 
        RCED-964-187.

        06/28/96  DC Emergency Highway Relief Act, RCED-96-196-187.

        06/27/96  Northeast Rail Corridor: Information on Users, 
        Funding Sources, and Expenditures, RCED-96-144.

        05/31/96  Mass Transit: Actions Needed for the BART Airport 
        Extension, RCED-96-176.

        04/01/96  Railroad Safety: DOT Faces Challenges in Improving 
        Grade Crossing Safety, Track Inspection Standards, and 
        Passenger Car Safety, T-RCED-96-114.

        04/01/96  Railroad Safety: DOT Faces Challenges in Improving 
        Grade Crossing Safety, Track Inspection Standards, and 
        Passenger Car Safety T-RCED-96-115.

        09/07/95  Niagara Falls Bridge Commission: Audit of Capital 
        Development Efforts and Selected Financial Practices, RCED-95-
        92.

        08/02/95  Railroad Safety: Status of Efforts to Improve 
        Railroad Crossing Safety, RCED-95-191.

    Testimony before the U.S. Congress on behalf of Department of 
Transportation:

        05/20/03  Surface Transportation Board's Budget before the 
        House Transportation and Infrastructure Rail Subcommittee.

        09/25/03  Innovative Financing of Transportation Infrastructure 
        Projects before the Joint Hearing of the Senate Committees on 
        Environment and Public Works and Finance.

    Speeches

        10/27/02  Present and Future of Core Federal Funding at the 3rd 
        National Transportation Finance Conference of the 
        Transportation Research Board in Chicago, Illinois.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreement, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        General Partner-Vista Apartments, Palo Alto, CA.
        Please refer to the opinion letter of the DOT Office of General 
        Counsel.

    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your respons to the above items.

        Please refer to the opinion letter of the DOT Office of General 
        Counsel.

                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    You both come very highly recommended and I will say that 
Secretary Mineta called me personally over the weekend to see 
if we could schedule this hearing so that he could have the 
assistance of the two of you, and urged that we proceed as 
rapidly as possible because of the problems he faces without 
the positions that you will hold being filled.
    So I want you to know that I read through the background 
statement that each one of you provided the Committee last 
night. I commend you on your careers to date and believe that 
you really have the background that is necessary, each of you, 
for the positions that the President has nominated you to fill.
    I really, in view of what I read last night, do not have 
any questions concerning that. Senator Inouye, do you have any 
questions of the ladies?
    Senator Inouye. I have just one question, Mr. Chairman. A 
few days ago we conducted a hearing in which we discussed 
financing for the security operations, TSA and other security 
operations, and we learned that over 90 percent of the funds 
available go for one purpose, airlines. What are your concerns 
about the other modes of transportation?
    The Chairman. Ms. Cino?
    Ms. Cino. Senator, I know, with regards to security, that 
is an issue that we work very closely with Homeland Security on 
and they take the lead in developing our strategy and 
procedures for security. I know that we are very, very 
fortunate to have the new Deputy Secretary of Homeland 
Security, Michael Jackson, who served with us at the Department 
of Transportation the first 2 years of the Administration. I 
look forward to working with him to do everything we possibly 
can with regards to ensuring safety and, if confirmed, I look 
forward to working with this Committee to ensure that our 
fellow Americans on transportation modes are secure in all that 
they do.
    Senator Inouye. One more. Several suggestions have been 
made that if we go below $1.3 billion for Amtrak it would put 
them on the route to bankruptcy. Is there any credence to that?
    Ms. Cino. I think, Senator, in my conversations with the 
Secretary, Secretary Mineta is committed to doing all he can 
for Amtrak, so much so that he has traveled around the country, 
he has met with elected officials, he has met with rail 
workers, and even has had conversations with our daily 
commuters, those folks that use the rail system.
    With regards to that, I know that the Secretary and the 
Administration are committed to saving Amtrak with the 
fundamental changes and the reforms that will be necessary to 
see this entity go on. If confirmed, I look forward to working 
with this Committee to make sure that we have a bill that we 
can enact and the President will sign.
    In addition, I think we have already made some good 
progress with regards to having proposals. We have the 
Administration proposal, obviously, but in addition Amtrak 
presented last week their proposal, and I believe that last 
week we were also encouraged by Senator Lott in expressing his 
desire to have a bipartisan bill in the next couple of weeks.
    Again, we look forward to making sure, both the 
Administration and Secretary Mineta, that we are able to save 
Amtrak with the fundamental changes and the reforms that we 
think are necessary.
    Senator Inouye. Thank you very much, Ms. Cino.
    The Chairman. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I again want to 
congratulate both the nominees. We are pleased at your 
willingness to serve in these very, very difficult times.
    As far as Amtrak is concerned, Ms. Cino and Ms. Scheinberg, 
we are going to continue to pump money in and it is going to 
continue to fail and things are going to happen as this latest 
failure of the Acela trains because, as we all know, rushed 
into service, billions of dollars, taxpayers' dollars, will be 
spent.
    The Administration proposal, Ms. Cino, is good. The 
President's proposal is very good for Amtrak. Will it happen? 
Probably not, probably not. But I applaud the President's 
courage in saying something has got to be done.
    Very few benefits of old age that I have found, but one of 
them is to remember when heads, presidents of Amtrak, came 
before this Committee and said: We are on a glide path to 
financial solvency; do not worry because we have got this new 
train; and let us continue to subsidize these long distance 
rail services which lose hundreds of dollars per passenger. And 
Members of this Committee continue to strongly support money-
losing propositions when less than 1 percent of the passengers 
in America ride on railroads.
    Billions and billions of the taxpayers' money will continue 
to be spent frivolously and outrageously. Yes, I believe that 
we need a Northeastern Corridor of rail and I have strongly 
supported it. But to support the so-called Sunset Limited that 
I believe is a $105 or $205 per passenger subsidy--I still 
remember the great story in the New York Times Magazine about 
the guy that rode it one time, and finally ended up taking a 
bus for the last quarter of the trip.
    So we will continue to pump money into Amtrak. We will 
continue to lose, to subsidize money-losing routes, and the 
taxpayer is the one that is going to suffer. This latest Acela 
thing is one in a long series of Amtrak difficulties that have 
cost the taxpayers billions of dollars, and again after being 
assured time after time by then-heads of Amtrak that everybody 
is fine and that everything is going to be just fine.
    So I applaud the President's courage in coming forward with 
an initiative that at least will educate the American people. 
Will it pass the Congress? No. But I certainly do applaud the 
President's courage in saying we have got to do something about 
this dramatically money-losing enterprise that was designed 
years ago to be turned over to the private sector after just a 
few years, which probably will not be in my lifetime.
    One other area I wanted to discuss with you is, I was in 
the Phoenix airport yesterday preparing to fly back to 
Washington. There was a security brief, and we all paused for a 
period of time. The thing that is most disappointing to me 
about TSA is that to my knowledge since we organized TSA and 
the security procedures at airports I have not seen one single 
technological advance as far as passengers are concerned. There 
should be a better way of moving people through airports, and 
that is obviously through technology.
    Hardly a day goes by that somebody--that I do not get a 
letter from some small business or medium size business or 
large corporation that says: Look, we have got some technology 
here that we think will enhance security and expedite people 
moving in and out of airports. You have got to start looking at 
this technology so that we can remove the almost permanent 
gridlock that we see in major airports across America today.
    I admire and respect TSA employees, but it is not manpower 
that is going to do it; it is technology.
    Finally, Ms. Scheinberg, I want to especially thank you for 
the great work you did at GAO. You were honest and 
straightforward and I hope none of those candid and honest 
opinions you gave will impede your nomination for this 
position.
    I want to congratulate the family members and friends of 
both of the nominees who are here today. I know it is a very 
proud time for you.
    Would you want to respond to that diatribe, Ms. Cino or Ms. 
Scheinberg?
    Ms. Cino. Senator, I have not been at the Department very 
long, but I think I will reserve the right to take your 
comments and bring them back to the Department.
    Ms. Scheinberg. Senator, I agree with you that we need to 
work on technology and we at the Department of Transportation, 
including Secretary Mineta who very strongly believes the same, 
will be working with the Department of Homeland Security on 
these issues.
    Senator McCain. Well, I thank you.
    Mr. Chairman, thank you. I again want to say that I believe 
that technology is out there and there seems to be, at least in 
the opinion of those who are trying to at least give serious 
consideration for these technologies, kind of a bureaucratic 
gridlock, that if we do nothing then we have not made a 
mistake, and therefore the status quo is fine.
    The status quo at airports is not fine, as you know, 
particularly in the major airports around America. I in a way 
am a little bit surprised at the incredible patience and good 
humor that most Americans show as they are required to take off 
their shoes, their bracelet, their jacket. I think it is a 
testimony to the willingness of the American people, but I 
think it is harmful to our airlines and I think it is harmful 
to our ability to transport people from one place to another 
throughout America.
    I congratulate both of you. We look forward to working with 
you and thank you for your willingness to serve.
    Thank you, Mr. Chairman.
    Ms. Cino. Thank you, Senator.
    Ms. Scheinberg. Thank you, Senator.
    The Chairman. Before I yield to Senator Lautenberg, let me 
say that this afternoon we have a hearing scheduled at 2 p.m. 
At that time, if we have a quorum I will ask consent to report 
these two nominations, with the hopes that we might be able to 
get them confirmed before the recess that starts on Friday.
    I have also just been called to the floor, so I hope that I 
can leave this in your gentle hands, Senator Inouye. I think 
Senator McCain is leaving. So am I. I yield to Senator 
Lautenberg.
    Senator Lautenberg. All of us are veterans, all four of us, 
so as a consequence we know how to deal with one another in 
guarded fashion.
    The Chairman. Very guarded.
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    I am sorry that Senator McCain had to go because I was 
pleased to hear him make a commitment that we are going to keep 
pumping money into Amtrak. That was very nice of him to make 
that kind of a suggestion.
    The fact of the matter is that in my view Amtrak is 
essential and I am sure that each of you is aware of the fact 
that the entire aviation system shut down on 9/11 and the only 
thing that was operating with any degree of reliability was 
Amtrak. So how in this day and age of security consciousness 
can we decide to cut out this one important mode of 
transportation?
    Twenty-five million people rode Amtrak last year, Senator 
Inouye, and we continue to hope that we are going to make 
Amtrak finally what it is supposed to be. That includes 
government subsidy. There is not a country in the world that 
has a reasonably decent operation on passenger rail that does 
not subsidize it in some way. Even in the UK, where they turned 
much of it over to private hands, now it gets more subsidy than 
it did before, except that it passes through one stage where 
people can take off a few pennies before, a few pence, whatever 
they call it there, before it goes towards moving passengers.
    I wanted to point out something else. We have a service 
that we call Essential Air Service. It is designed to keep 
communities from being so isolated that transportation in and 
out is very difficult. It costs as much as $200 per passenger 
for every passenger that is included on an Essential Air 
Service route. And contrary to the impressions that my 
distinguished colleague had about promises that were made by 
chiefs of Amtrak that the railroad would soon be on a glide 
path to fiscal sustainability, I do not remember, and I have 
been here a long time--I know I just look like a freshman, but 
I have been here a long time. The fact of the matter is that we 
had statements from heads of the railroad who said we cannot 
ever do the capital financing that we need and meet our 
operating requirements. It just cannot be done.
    So when we look at the costs, Mr. Co-Chairman, Acting 
Chairman--and I wish you permanent chairmanship--the fact of 
the matter is that rail service cannot be done without 
recognizing that a subsidy is necessary. I hope that the 
President can realize this fact.
    Do either of you share a different view than I do about the 
essentiality of Amtrak? How about Buffalo, Ms. Cino? It is a 
very important city on our northern border--and I know the 
places, not quite as well perhaps as Senator Clinton, but 
Binghampton, Rochester. What would reliable, relatively high 
speed service mean to a city like Buffalo or other cities that 
are isolated like that?
    Ms. Cino. Thank you very much, Senator. With regards to 
Amtrak and the rail service, but in particular with regards to 
Amtrak, I know that smarter people than I have been talking 
about this issue for the last 35 years. But I must say in the 
last 12 days, working days that I have actually been at the 
Department of Transportation, I have probably spent 10 full 
days working on Amtrak and rail issues. So while I am not quite 
up to speed, I feel that I have had a pretty good lesson over 
the last 12 days.
    With regards to Amtrak, I believe again that the Secretary 
is committed, the Administration is committed, to saving 
Amtrak, but looking for some of the reforms that have been 
talked about both in the Amtrak bill and certainly I think 
perhaps even by Senator Lott with regards to making sure that 
we preserve the rail system, but again incorporate the reforms 
to help us become more solvent and sound.
    Senator Lautenberg. Ms. Scheinberg, do you with your budget 
experience have any views on what we do about Amtrak?
    Ms. Scheinberg. Yes, Senator Lautenberg. I totally agree 
with you, and the Secretary and the President agree with you, 
that we cannot have an intercity passenger rail system in this 
country without federal support. It makes sense that the 
federal support be for capital investment, as it is with 
highways and airports. The Federal Government supports capital 
investment, and the state and local governments support the 
operations of the mode of transportation. That is a cornerstone 
of the President's reform package.
    I know the Secretary has said that with reform will come 
money, will come financing. But at the moment the system that 
we have is broken. For over 30 years we have been providing 
money to Amtrak and it is actually having more and more 
problems. What we are trying to do with the President's 
proposal is to reform the system so that we can spend our 
federal dollars wisely and have a better intercity passenger 
rail system.
    Senator Lautenberg. Well, I can see that Secretary Mineta 
has had a chance to impart his wisdom and knowledge to each of 
you. The words are not really comforting, though they are 
nicely said by intelligent people. When they talk about reform 
around here now, it usually refers to turning a government 
function over to private hands. Well, I remind everybody that 
Amtrak was in private hands until the government was forced to 
take it over, with bankruptcies being the spur to move these 
things.
    So if we look at what has happened, we took the airport 
security screeners away from private hands because the airlines 
did such a poor job, and now we are talking about going to 
perhaps privatize the screeners once again.
    I think, Mr. Chairman, that's part of what causes enormous 
delay is the search for the tiniest scissor or tweezer or 
things of that nature. I believe that this is a conspiracy by 
the scissor manufacturers to make sure that they confiscate 
your scissors so that you can go out and buy new ones.
    But it is an outrageous thing, when the cockpit doors are 
already sealed. I think we ought to be looking at requiring 
installation of a cabin camera viewed in the cockpit, and if 
someone sees somebody holding a cabin attendant with something 
at their throat to be suspicious and maybe do something about 
it. Instead, we continue to proceed with this incredible search 
and this humiliation that goes with taking off your shoes, 
especially if you have got holes in your socks. It is not nice, 
not for Senators anyway. If the administration would fund less-
intrusive screening technology, travellers wouldn't be so 
inconvenienced.
    But we have to look at these things and see what they 
really mean. If it makes travellers safer, we have got to do 
it. But a constant reminder that terrorists are looking over 
our shoulder is not particularly good for the morale of the 
country. Many people are frustrated, disgusted, and annoyed. I 
had talked with Secretary Chertoff yesterday and they are 
looking at the possibility of avoiding this senseless search 
for a little pair of scissors that do not mean anything when 
you still have a plastic knife. Some airlines, by the way, give 
you metal knives and some use only plastic knives. Now, I do 
not think that one airline cares more about its passengers than 
the other, so I'd like to know the government's role in 
providing guidance on this topic.
    In any event, I am pleased to see the two of you willing to 
take on the assignments before you, that the Chairman and other 
Members of the Committee are anxious to have your confirmation 
in place. I will join them.
    I have many questions and will submit them for the record. 
I would ask in closing if we could get statistics on what 
happened while the mandatory universal motorcycle helmet law 
was in place. I was the author of that, and I know that we in 
our hospitals in New Jersey had a reduction in neck, head and 
neck trauma as a result. The federal requirement was repealed a 
couple of years later, at the urging of people who wanted to be 
freer, one of whom had a terrific motorcycle accident, Senator 
Ben Nighthorse Campbell, at a later time.
    So if you could supply that for me it would be helpful, and 
I thank you both for again your willingness to serve.
    Mr. Chairman, I thank you very much.
    Senator Inouye. [presiding] Thank you very much, Senator. I 
also join my Chairman in congratulating the ladies for your 
spirit of public service. We thank you very much.
    Like Chairman Stevens, I received a call from Secretary 
Mineta. He must think very highly of you, ladies. He called me 
up just before I went to bed. He was really at work. So we will 
do our best to expedite your confirmation and do not be 
surprised if you are in your positions tomorrow.
    Ms. Cino. Thank you very much.
    Senator Inouye. Thank you very much.
    [Whereupon, at 10:48 a.m., the Committee was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                               Maria Cino
Amtrak
    Question. As Deputy Secretary, will you take on the role as the 
representative for the Secretary on Amtrak's Board as some of your 
predecessors have? What do you believe should be the qualifications of 
Amtrak Board members? Do you believe the President and CEO of Amtrak 
should be a voting member of the Board?
    Answer. The decision by the Secretary to serve on the Amtrak Board 
himself or to assign a representative is his alone, but I would be 
pleased to take on this role if he requested it.
    The Amtrak Reform and Accountability Act of 1997 directed that 
Board members ``have technical qualifications, professional standing, 
and demonstrated expertise in the fields of transportation or corporate 
or financial management.'' President Bush and Secretary Mineta have 
taken this direction seriously and have nominated individuals whose 
backgrounds meet these criteria. The Act also named the Amtrak 
President and CEO an ex officio member of the Board. The President's 
reform proposal, which I support, does not seek to change either of 
these Congressional mandates.
Airport Improvement Program/Facilities and Equipment
    Question. The Administration has proposed dramatic cuts to the 
Airport Improvement Program (AIP) and the Facilities and Equipment 
(F&E) program in FY 2006. Over the past two years these programs have 
been cut by more than $1 billion below their authorized levels.
    Are you concerned that this year's planned $500 million cut in AIP 
will create problematic formula adjustments that will essentially shut 
many of the nation's smallest airports out of the funding equation? 
What do you propose as the most effective solution for the Federal 
Government to meet the needs of all of our nation's airports?
    Does the Administration plan to continue cutting the F&E account in 
future years? What will the effect of the current proposal be on 
efforts to modernize the national airspace system?
    Answer. I understand that the President's FY 2006 budget 
specifically proposes legislative language to preserve the entitlement 
grants for the nation's smallest airports. Further, the President's 
budget also suggests a minimum amount of money for AIP discretionary 
funds to allow FAA to target projects of highest priority. FAA believes 
this will further enable the agency to support the needs of the smaller 
airports in the system.
    I have been reassured by FAA that the slight reduction in the FY 
2006 Facilities and Equipment budget will not affect the FAA's 
modernization plans or delay projects that directly contribute to FAA's 
strategic safety and capacity goals. Obviously, I cannot predict future 
levels of F&E funding, but if confirmed, I will work closely with 
Secretary Mineta, the Committee on Commerce, Science and Transportation 
and the FAA to ensure that adequate funds are budgeted to allow the FAA 
to move forward with modernization projects that are critical to the 
national airspace system.
Automated Flight Service Stations
    Question. The Nation's Automated Flight Service Stations (AFSS) 
were recently contracted out through the A-76 process. There have been 
some indications that anticipated savings over the first 5 years of the 
contract are far smaller than indicated.
    Can you provide a detailed update of the status of the AFSS 
contract? Do you support using the A-76 process on other components of 
the nation's air traffic control system?
    Answer. On February 1, 2005, the FAA awarded a contract to Lockheed 
Martin for the services provided to general aviation pilots through a 
network of 58 Automated Flight Service Stations located in the 
continental United States, Puerto Rico and Hawaii. Three new Hubs will 
be built in Leesburg, Virginia; Ft. Worth, Texas; and Prescott, 
Arizona. Seventeen other existing facilities will be refurbished and 
continue operation. Thirty-eight facilities will be closed. The FAA has 
told me that the estimated savings from this contract substantially 
exceed the required A-76 $1 billion level and that the process was 
supported by general aviation pilots that use these services.
    I understand that Secretary Mineta designated air traffic control a 
``core function'' of the FAA and therefore not subject to competitive 
sourcing. I am not aware that this issue is being revisited at the 
Department.
Maritime--Title XI
    Question. The Title XI ship financing program has recently 
undergone significant reforms to meet Congressionally mandated 
recommendations. Yet the financial safeguards the IG has imposed above 
and beyond GAO and Congressional requirements, has lead to excessive 
oversight, redundant reviews, and unpredictable bureaucratic red tape 
by the newly formed Credit Council.
    How do you intend to revitalize Title XI to focus the expertise of 
the Maritime Administration and the Department's limited resources to 
make this program functional once again?
    Answer. It is my understanding that the Credit Council was created 
to provide overarching credit policy direction for all of the 
Department's credit programs. As with the implementation of any new 
process, the Secretary views the new credit process as a work in 
progress, which will be modified as needed to incorporate future 
refinements over time.
    With the obligation of Title XI subsidy for the Hawaii Superferry 
project, I am told that there are effectively no subsidy funds 
available for new Title XI loan guarantees. Consistent with the 
Administration's intent to eliminate corporate subsidies, the 
President's FY 2006 Budget did not request subsidy funds for new Title 
XI loan guarantees. Thus, the Department's main focus is ensuring that 
the Maritime Administration has the tools it needs to manage the 
outstanding Title XI portfolio effectively.
Maritime--Port Infrastructure Development/SEA-21 Initiative
    Question. Secretary Mineta has repeatedly and openly discussed the 
Department's proposed Sea Transportation Efficiency Act of the 21st 
Century Act (SEA-21) in numerous speeches throughout the country. I 
know the Marine Transportation System National Advisory Council 
(MTSNAC) presented their recommendations to Secretary Mineta in 
November of 2003 and the Secretary has since proposed his 
recommendation to the White House.
    With our country woefully lacking in a comprehensive federal policy 
for port infrastructure development, given the expected doubling of 
growth over the next fifteen years, how does the department plan to 
address these significant shortcomings in our Nation's transportation 
systems?
    Answer. Secretary Mineta believes that a comprehensive marine 
transportation system improvement initiative would enhance the nation's 
overall transportation system, and he has asked his staff to undertake 
a comprehensive review of the marine transportation system and develop 
a package of recommendations. The Secretary has also successfully 
advocated for the creation of an Interagency Committee on the Marine 
Transportation System--a cabinet-level committee that he will chair. 
The Secretary's ultimate goal in developing a ``SEA-21'' proposal is to 
deliver a marine transportation system that enhances the efficiency, 
productivity, and capacity of our nation's intermodal transportation 
system.
    If confirmed, I look forward to working closely with the Secretary 
and Members of the Committee on Commerce, Science and Transportation to 
ensure that our maritime system is a vibrant piece of our national 
transportation network.
Maritime--Review of Title XI Applications
    Question. The National Defense Authorization Act for Fiscal Year 
2004 (Pub. L. 108-36) has a statutory provision for independent reviews 
of Title XI applications. The Committee report accompanying the 
legislation makes clear that Congress did not intend for this authority 
to be used in ``routine cases or where MARAD already has sufficient 
expertise to assess full the risk or approving a loan guarantee 
application.''
    In view of clear Congressional intent, why is MARAD required to 
obtain independent reviews from applications that appear to be routine 
or clearly within MARAD's expertise?
    Answer. I have been assured that MARAD is not required to obtain 
independent reviews of Title XI applications that would be counter to 
the guidance provided in the Conference Report accompanying the 2004 
DoD Authorization Act. To date, there has been only one Title XI 
application--Hawaii Superferry--for which an external advisor has been 
retained. Although I was not here at the time, I have been told that 
MARAD proposed--and the Department agreed--that an external advisor 
should be retained in that case, because the project involved an 
applicant with less than 5 years operating experience and service in a 
new market.
Maritime--Credit Council Review of Title XI Applications
    Question. It is my understanding that Title XI applications go 
through three different reviews before they are presented to the Credit 
Council. This seems to be very redundant and an inefficient use of 
government resources.
    In this era of serious personnel constraints, how is this 
duplication of efforts justified?
    Answer. It is my understanding that the reviews that occur prior to 
an application being presented to the DOT Credit Council are concurrent 
and are done with existing Department personnel. In light of past 
concerns expressed by Congress and the findings and recommendations of 
the DOT Inspector General and the Government Accountability Office, the 
Department believes that these different reviews are an important part 
of the Department's due diligence in the review of Title XI 
applications. If confirmed, I will look for ways to refine the 
Department's evaluation process and will certainly be open to 
suggestions from the Congress for improvements in the process.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                         Phyllis F. Scheinberg
Amtrak--Funding Stream
    Question. Most of our federal capital grant programs for 
transportation feature some sort of dedicated, multi-year, guaranteed 
funding stream. Experts widely agree that the stability provided by 
such dedicated funding is essential for the development of a successful 
large-scale transportation program.
    As Assistant Secretary for Budget and Chief Financial Officer for 
the Department, will you support the creation of a dedicated, multi-
year, guaranteed funding stream for intercity passenger rail and 
Amtrak? If so, how should this be structured?
    Answer. The President's legislative proposal to restructure 
intercity passenger rail transportation in the U.S. would establish a 
permanent federal grant program for capital projects to public entities 
that decide on infrastructure investments. This proposed authorization 
is structured to parallel the existing capital assistance program for 
public transit new starts projects.
    The transit grant system is based on a full funding grant agreement 
(FFGA) between the Federal Government and the local public project 
sponsor. The FFGA identifies the total cost of the project and the 
federal and local funding shares. The funding for transit capital 
projects comes from the transit portion of the Highway Trust Fund. The 
funding source for the proposed intercity passenger rail infrastructure 
grants has not been identified.
    If confirmed, I look forward to working with you to use the transit 
model as a possible example in reforming the process and funding of 
federal grants for intercity passenger rail infrastructure projects.
FAA Cost Accounting
    Question. What is the status of the Federal Aviation 
Administration's (FAA) cost accounting system methodology? What do you 
hope to gain from it when it is developed?
    Answer. As of April 2005, FAA has provided cost accounting 
information for all of its FY 2004 data and for the first quarter of FY 
2005 for two of its four lines of business. FAA plans to have Cost 
Accounting in place throughout the agency by June 2006. It should be 
noted that FAA has implemented a labor distribution reporting process 
where over 43,000 employees now report their time by project and task.
    To help stress the importance of finance, FAA has revamped its 
executive and management training to include a focus on improved 
financial accountability. FAA is committed to completing the 
implementation of the Cost Accounting System and if confirmed, it would 
be my expectation that FAA would use this valuable financial 
information in making business decisions.
    One example of where that is already being done is in the Air 
Traffic Organization, which is establishing unit cost metrics to help 
drive efficiencies within the organization. The recently published ATO 
Annual Performance Report to Congress noted that FY 2004 costs per 
flight fell an estimated $17. The support for this number came directly 
from the FAA Cost Accounting System.

                                  <all>

</pre></body></html>
